HHS/OIG, Audit -"Review of Administration for Children and Families Runaway and Homeless Street Outreach Program Administered by Washington County Youth Service Bureau and Boys&Girls Club,"(A-01-01-02504)
Department
of Health and Human Services
"Review of Administration for Children and Families Runaway and Homeless Street Outreach Program Administered by
Washington County Youth Service Bureau and Boys & Girls Club," (A-01-01-02504)
December 26, 2001
Complete
Text of Report is available in PDF format (366 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our review of the Washington County Youth Service Bureau and Boys & Girls Clubs (Washington County) administration
of the Administration for Children and Families Runaway and Homeless Street Outreach Program (SOP) disclosed that the
grant award goals and objectives are being met in a satisfactory manner.  In addition, Washington County has established
an adequate system of financial management controls to properly account for and report on SOP expenditures.  We did
find some inaccuracies in the number of program participants reported in some quarterly Program Progress Reports for certain
program activities.  However, Washington County officials took immediate action to establish a formalized policy to
correct this situation.